No. 20-322
IN THE SUPREME COURT OF THE UNITED STATES
_________________
MERRICK B. GARLAND, ATTORNEY GENERAL, ET AL.,
PETITIONERS
v.
ESTEBAN ALEMAN GONZALEZ, ET AL.
_________________
CERTIFICATE OF SERVICE
It is hereby certified that all parties required to be served have been served with copies of
the BRIEF FOR THE PETITIONERS, via email and first-class mail, postage prepaid, this 14th
day of October, 2021.
[See Attached Service List]
As required by Supreme Court Rule 33.1(h), I certify that the document contains 12,620
words, excluding the parts of the document that are exempted by Supreme Court Rule 33.1(d). I
declare under penalty of perjury that the foregoing is true and correct. Executed on
October 14, 2021.

Brian H. Fletcher
Acting Solicitor General
Counsel of Record
Department of Justice
Washington, D.C. 20530-0001
(202) 514-2217
October 14, 2021

Due to the continuing delay in receiving incoming mail at the Department of Justice, in
addition to mailing your brief via first-class mail, we would appreciate a fax or email copy of
your brief. If that is acceptable to you, please fax your brief to Charlene Goodwin, Supervisory
Case Management Specialist, Office of the Solicitor General, at (202) 514-8844, or email at
SupremeCtBriefs@USDOJ.gov. Ms. Goodwin’s phone number is (202) 514-2217 or 2218.

20-0322
GARLAND, MERRICK B., ATTORNEY GENERAL,
ET AL.
ESTEBAN ALEMAN GONZALEZ, ET AL.
MATT ADAMS
NORTHWEST IMMIGRANT RIGHTS PROJECT
615-SECOND AVENUE
SUITE 400
SEATTLE, WA 98104
206-957-8611
MATT@NWIRP.ORG
MATTHEW H. GREEN
LAW OFFICES OF MATTHEW H. GREEN
130 W. CUSHING STREET
TUCSON, AZ 85701
520-882-8852
MGREENH@AZBAR.ORG
LAWRENCE J. JOSEPH
IMMIGRATION REFORM LAW INSTITUTE
1250 CONNECTICUT AVE., NW
SUITE 700-1A
WASHINGTON, DC 20036
202-355-9452
LJ@LARRYJOSEPH.COM
MICHAEL KAUFMAN
ACLU FOUNDATION OF SOUTHERN
1313 WEST 8TH STREET
LOS ANGELES, CA 90017
MKAUFMAN@ACLUSOCAL.ORG

VIA EMAIL

JUDAH LAKIN
VAN DER HOUT LLP
180 SUTTER STREET
FIFTH FLOOR
SAN FRANCISCO, CA 94104
JUDAH@LAKINWILLIE.COM
ALISON PENNINGTON
CENTRAL LEGAL DE LA RAZA
3400 E. 12TH STREET
OAKLAND, CA 94601
VASUDHA TALLA
ACLU FOUNDATION OF NORTHERN
39 DRUMM STREET
SAN FRANCISCO, CA 94111
BARDIS VALKILI
ACLU FOUNDATION OF SAN DIEGO
PO BOX 87131
SAN DIEGO, CA 92138-7131

